EXECUTIONS SCHEDULED FOR JANUARY 14 & 15, 2021 AT 6:00 P.M. E.T.
No. 20A131
_____________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
DUSTIN HIGGS AND COREY JOHNSON,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
_____________________________________________________________
CAPITAL CASE
REPLY BRIEF IN SUPPORT OF
EMERGENCY APPLICATION FOR STAY OF EXECUTION
OF DUSTIN HIGGS AND COREY JOHNSON
__________________________________________________________________

DONALD P. SALZMAN*
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Avenue N.W.
Washington, DC 20005-2111
Ph: (202) 371-7983
Donald.Salzman@skadden.com
Alexander C. Drylewski
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001
Ph: (212) 735-3278
Alexander.Drylewski@skadden.com

Counsel for Corey Johnson
*Counsel of record for Petitioner Johnson,
and Member of the Bar of the Supreme
Court

SHAWN NOLAN*

MATTHEW LAWRY
ALEX KURSMAN
FEDERAL COMMUNITY DEFENDER
OFFICE, E.D. PA.
601 WALNUT STREET, SUITE 545 WEST
PHILADELPHIA, PA 19106

Ph: (215) 928-0520
shawn_nolan@fd.org
alex_kursman@fd.org

Counsel for Dustin Higgs
*Counsel of record for Petitioner Higgs,
and Member of the Bar of the Supreme
Court

Petitioners Corey Johnson and Dustin Higgs file this Reply in support of
their Emergency Application for a stay of their executions.
ARGUMENT
I.

Suffering The Conscious Experience Of Waterboarding Constitutes An
Eighth Amendment Violation
Citing Bucklew v. Precythe, 139 S. Ct. 1112 (2019), the Government argues

that the Eighth Amendment is indifferent to a “brief” period of excruciating pain,
including “at most around two minutes” of conscious drowning. Opp. 18-19. The
Government misreads Bucklew. At no point did Bucklew hold that any particular
period of excruciating suffering is a non-event for Eighth Amendment purposes,
including the 20-30 second period that the Court considered there. The Court ruled
only that the prisoner’s alternative (nitrogen hypoxia) did not appreciably reduce
the duration of suffering, not that the suffering itself was constitutionally
inconsequential. See id. at 1132.
The Government argues that flash pulmonary edema is no worse than
hanging, which has been constitutional for centuries. Opp. 18-19 (citing Bucklew,
139 S. Ct. at 1124; Barr v. Lee, 140 S. Ct. 2590, 2591 (2020)). But Bucklew
explained that hanging “was not considered cruel because that risk was thought –
by comparison to other known methods – to involve no more pain that was
reasonably necessary to impose a lawful death sentence. Bucklew, 139 S. Ct. at
1127. In Lee, the Court implied that hanging does involve more pain than is
reasonably necessary, explaining that lethal injection was “thought to be less
painful and more humane than traditional methods, like hanging.” Lee, 140 S. Ct.
1

at 2591. Here, when compared to the proffered alternatives, i.e., addition of an
analgesic, the administration of five grams of pentobarbital, which the district court
found will cause minutes of “drowning akin to waterboarding[,]” cruelly superadds
pain. And while hanging caused death “sometimes through ‘suffocation, which could
take several minutes,’” Opp. 19, the district court found that it is certain that
execution by the lethal injection protocol will subject Petitioners to the conscious
experience of minutes of flash pulmonary edema.
Nor does it help the Government to rely on the Sixth Circuit’s opinion in In re

Ohio Execution Protocol Litig., 946 F.3d 287, 298 (6th Cir. 2019), Opp. 19, for the
proposition that the Eighth Amendment is indifferent to flash pulmonary edema
because it resembles the effects of botched hangings that the courts have tolerated.
For one thing, other court precedent is to the contrary. See, e.g., Execution Protocol

Cases, 980 F.3d at 132 (holding that flash pulmonary edema may give rise to an
Eighth Amendment claim). For another, the Government misreads the Sixth
Circuit’s ruling. The court’s casual remark that the sensation of drowning and
asphyxiation “looks a lot like the risks of pain associated with hanging” does not
establish that flash pulmonary edema is per se constitutional. See Ohio Execution

Protocol, 946 F.3d at 290.
II.

The District Court’s Factual Findings Are Owed Substantial Deference
A. Petitioners’ Entitlement to Relief Does Not Depend on “Close
Questions of Scientific Fact”
The D.C. Circuit concluded that the district court improperly granted a

preliminary injunction based on its evaluation of “competing expert testimony on
2

close questions of scientific fact.” App. 4. The court’s decision, however, both
understates key undisputed facts and wholly mischaracterizes aspects of the factual
record before the district court.
Far from hearing “sharply contrasting expert testimony on virtually every
major point,” Opp. at 9, the district court relied on a number of undisputed
underlying facts in granting a limited injunction. Respondents do not dispute that
both Mr. Higgs and Mr. Johnson have been diagnosed with COVID-19 and that they
“have been exhibiting symptoms consistent with that diagnosis.” App. 8. Moreover,
Respondents’ experts do not dispute that COVID-19 causes lung damage in a large
majority of symptomatic patients, even when symptoms are mild. Dr. Locher does
not dispute the research cited by Dr. Van Norman indicating that at least 79% of
symptomatic COVID-19 patients have lung damage. Dkt. #374-1 at 4. In fact,
studies that Dr. Locher cites in his own declaration find that between 44.5% and
94.8% of even asymptomatic COVID-19 patients have lung damage visible on a CT
scan. See Dkt. #389, Hrg. 78; Dkt. #380-1 at ¶ 11 (Locher Decl.). COVID-related
lung damage persists after symptoms have subsided for at least several weeks to 90
days – another point that Respondents do not dispute. See App. 10, App. 31 n.13.
With respect to flash pulmonary edema, “[i]t is further undisputed that
Petitioners will suffer flash pulmonary edema as a result of [their executions].” App.
8. Respondents do not dispute the mechanism by which flash pulmonary edema
occurs. As Dr. Van Norman testified, pentobarbital causes pulmonary edema
because the drug is highly caustic, so that when the chemical contacts lung tissue, it

3

begins damaging that tissue and causes fluid to leak into the lungs. See generally
Hrg. 145-48. Finally, Respondents do not dispute that pentobarbital reaches the
lungs before reaching the brain. App. 12 (explaining that Dr. Antognini, whom
Respondents did not call for direct testimony, did not in his written declaration
“address Dr. Van Norman’s explanation that injected pentobarbital will begin to
attack damaged lungs before it reaches the brain.”).

Significant lung damage –Respondents question whether Petitioners’ lungs
are significantly damaged from COVID, pointing to Dr. Locher’s description of
“minimal” or “mild” symptoms. Add. 5-6. But the district court discounted Dr.
Locher’s testimony because he failed to notice significant symptoms from Mr.
Higgs’s medical records, including persistent coughing. Add. 29-30. Dr. Locher
similarly failed to notice what Dr. Stephen and the district court described as
obvious changes in Mr. Higgs’s chest x-ray as between 2018 and December 2020.
Add. 30. The district court that saw and heard the evidence, including the x-rays,
found it “troubling that Dr. Locher did not account for these obvious differences
between the two scans.” Add. 30-31. And far from relying on “the court’s own
reading of the x-ray,” Opp. at 15, the district court appropriately credited the
testimony of Dr. Stephen, whom the court found more credible. Similarly concerning
was the fact that Dr. Locher characterized the results of both Mr. Higgs’s 2018 and
2020 x-rays as normal despite the fact that “chest x-rays typically only show seven
to nine ribs, but Higgs’ x-ray films showed eleven ribs” as a result of his poorlycontrolled asthma, as Dr. Stephen explained. APP.13. The court reasonably

4

discounted Dr. Locher’s testimony. Id.; see also Add. 32 (discounting Dr. Locher’s
views as to Johnson in light of Dr. Locher’s flawed analysis of Mr. Higgs’s x-rays).
Also erroneous is the court’s remark that “mild” cases of COVID-19 may
result in lung damage in as few as 44.5% of cases. Add. 6. That figure describes a
study of asymptomatic COVID patients. Hrg. 63; Locher Decl., Dkt. #380-1, at 3.
Mr. Higgs and Mr. Johnson are both symptomatic, as Dr. Locher acknowledged
despite his selective review of medical records. Hrg. 63-64; Add. 30. And Dr. Van
Norman explained that 80% to 95% of symptomatic COVID patients suffer lung
damage. Hrg. 166.

COVID-enhanced likelihood of flash pulmonary edema – Respondents argue
that the evidence underlying Petitioners’ claims is “based entirely on pure
speculation or on scientific rationales necessarily rejected by this Court in vacating
the Eighth Amendment injunction at issue in Lee.” Opp. at 10. Once again,
Respondents misread the record. The district court credited Dr. Van Norman’s live
testimony that pentobarbital is “a caustic chemical” which is “going to attack an
already leaky membrane.” Add. 26-27. Dr. Van Norman explained, at length, that
COVID-related damage allows toxins to degrade the same lung tissues that are
already compromised. See also Hrg. 153, 155, 157-58, 160-61, 192. “Everything we
know about pulmonary physiology at the alveolar capillary membrane level says
that if you already have a damaged alveolar capillary membrane and then you flood
it with a toxic chemical, that you’re at increased risk and increased heightened
rapidity of getting pulmonary edema.” Hrg. 165-66.

5

Flash pulmonary edema before the prisoner is insensate – The D.C. Circuit
also errs by characterizing Petitioners’ evidence that they will experience flash
pulmonary edema while sensate as “shaky” and insufficient to meet the “high bar”
imposed by Lee. The D.C. Circuit errs because the evidence below is substantially
broader than that in Lee – and was credited as such by the district court. First, Dr.
Van Norman explained the mechanism by which pentobarbital works swiftly on
COVID-damaged lung tissues by corroding them when “the drug has not even
reached the brain at that point.” Hrg. 192. Pulmonary edema begins
“instantaneously” in light of the “synergistic effects” of the COVID infection and
pentobarbital at the pulmonary-capillary membrane. Hrg. 160-61. Second, Dr.
Stephen also testified to that effect and was found credible. Add. 27. He stated that
flash pulmonary edema would occur “almost immediately” after injection of 5 grams
of pentobarbital. Hrg. 98. Third, the district court discounted Dr. Antognini’s views
because Dr. Antognini nowhere addressed the causal mechanism described by Drs.
Van Norman and Stephen and credited by the district court.
B. The District Court Acted Appropriately as Factfinder
While it is true that the Supreme Court has cautioned against courts
“embroil[ing] [themselves] in ongoing scientific controversies beyond their
expertise,” when evaluating alternative methods of execution, Glossip v. Gross, 576
U.S. 863, 882 (2015) (quoting Baze v. Rees, 553 U.S. 35, 51 (2008) (plurality
opinion)), the court did not suggest that district courts abdicate their responsibility
to determine whether a given method of execution is cruel in the first instance.

6

Indeed, the Court in Glossip reaffirmed that “we must invalidate a lethal injection
protocol if it violates the Eighth Amendment.” Glossip, 576 U.S. at. 863 (emphasis
added). Here, the district court acted entirely within its authority to hold an
evidentiary hearing to evaluate the credibility of competing experts. In doing so, the
court fulfilled one of the most basic roles of a court: to act as factfinder and evaluate
the relative credibility of witnesses with conflicting testimony. See Kumho Tire Co.

v. Carmichael, 526 U.S. 137, 142 (1999) (“[T]he law grants a district court the same
broad latitude when it decides how to determine reliability [of scientific or technical
evidence] as it enjoys in respect to its ultimate reliability determination.”).
Here, the district court appropriately limited its analysis to making lay
observations and evaluating traditional markers of credibility. The court
discounted, for instance, much of the testimony from Respondents’ pulmonologist
Dr. Locher because multiple inaccuracies in his sworn declaration made it “unclear
how closely [Dr. Locher] had reviewed the relevant medical records.” A14. These
inaccuracies included Dr. Locher’s contention “that Higgs was not experiencing any
symptoms” on multiple dates in late December despite the fact that BOP medical
records “clearly indicate” that he was. A14-15. The court found similar
inconsistencies with respect to Dr. Locher’s review of Mr. Johnson’s medical records.

See id. (noting that “Dr. Locher’s declaration states that Johnson exhibited no
symptoms of COVID-19 on December 22 and 23” but that he acknowledged during
cross-examination that the medical records reflected COVID-19 symptoms during
that time period).

7

Similarly, in declining to credit the opinions of Dr. Antognini, the court relied
on the fact that Dr. Antognini only “cited two studies in his entire declaration,
neither of which involved COVID-19,” and that “[h]is declaration did not indicate
whether he even treats COVID-19 patients.” App. 12. Here again, the court relied
on traditional markers of the reliability of expert testimony: the expert’s
qualifications and his reliance on relevant published studies. What the court did
here was no different from the daily work of district judges across the country, who
routinely preside over bench trials involving complex medical malpractice, mass
torts, and products liability, and other matters involving specialized scientific or
technical evidence. Surely Respondents do not suggest that district courts are
incapable of resolving factual disputes involving scientific expert testimony.
III.

Executing Petitioners While They Remain COVID-19 Symptomatic
Superadds Pain And Terror To Their Executions
The Government contends that they are not superadding pain to Petitioners’

executions, despite a finding from the district court that executing Petitioners while
they remain symptomatic with COVID-19 will cause them to experience sensations
akin to waterboarding for up to two and a half minutes. Opp.18. Yet that is precisely
what the Government is doing by rushing to execute Petitioners before their lungs
heal. Indeed, Mr. Higgs’s recent chest x-ray confirmed “extensive damage caused by
COVID-19.” App.13. The injunction issued in this case is a limited one, and lasts only
until March 16, 2021, when the Government will be free to execute Petitioners. At
that time their risk for consciously experiencing flash pulmonary edema will have

8

decreased, i.e. the risk of flash pulmonary edema may remain, but it will not be
certain to happen, as the district court found. App. 16.

9

CONCLUSION
The application for stays of executions pending a petition for a writ of certiorari
should be granted.
January 14, 2021

Respectfully submitted,
/s/ Matthew Lawry
Matthew Lawry
Shawn Nolan
Alex Kursman
FEDERAL COMMUNITY DEFENDER
OFFICE, E.D. PA.
601 WALNUT STREET, SUITE 545 WEST
PHILADELPHIA, PA 19106
Ph: (215) 928-0520
shawn_nolan@fd.org
alex_kursman@fd.org

Counsel for Dustin Higgs
Donald P. Salzman
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Avenue N.W.
Washington, DC 20005-2111
Ph: (202) 371-7983
Donald.Salzman@skadden.com
Alexander C. Drylewski
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001
Ph: (212) 735-3278
Alexander.Drylewski@skadden.com

Counsel for Corey Johnson

10

